No, 20-740

 

IN THE
SUPREME COURT OF THE UNITED STATES

JIM BOGNET, ET AL.,
Petitioners,
v.

KATHY BOOCKVAR, SECRETARY OF THE
COMMONWEALTH OF PENNSYLVANIA, ET AL.,
Respondents.

On Petition for a Writ of Certiorari from the
United States Court of Appeals for the Third Circuit

CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I certify that the Respondent’s Brief
in Opposition was prepared using Century 12-point typeface and contained 1,605
words. This certificate was prepared in reliance on the word-count function of
Microsoft Word, the word processing system used to prepare the document.

I declare under penalty of perjury that the foregoing is true and correct.

Executed March 15", 2021.
Respectfully submitted,

Mek,
PETER G. FACE
Counsel of Record
433 Market Street
Williamsport, PA 17701

(570) 326-6555
pfacey@mpvhlaw.com
